FILED, Clerk of the Supreme Court, 14 Sep 2020, 084595

Appendix A
SUPREME COURT OF NEW JERSEY
C-40 September Term 2020
084595
Heather Stanton, f/k/a
Heather Sembrat,
Plaintiff,
ORDER
v.

Kevin Sembrat
Defendant-Petitioner.

A petition for certification of the judgment in A-005389-18
having been submitted to this Court, and the Court having considered the
same;
It is ORDERED that the petition for certification is denied.

WITNESS, the Honorable Stuart Rabner, Chief Justice, at Trenton, this
9th day of September, 2020.

CLERK OF THE SUPREME COURT

Appendix B
DOCKET NO. A-5389-18T3
SUPERIOR COURT OF NEW JERSEY APPELLATE DIVISION

Stanton v. Sembrat
Decided May 22. 2020

DOCKET NO. A-5389-18T3
05-22-2020
HEATHER
STANTON,
f/k/a
SEMBRAT, Plaintiff-Respondent,
SEMBRAT Defendant-Appellant.

HEATHER
v. KEVIN

Kevin Sembrat, appellant pro se. Respondent has
not filed a brief.
PER CURIAM

NOT
FOR
PUBLICATION
WITHOUT THE APPROVAL OF
THE APPELLATE DIVISION
This opinion shall not "constitute precedent or be
binding upon any court." Although it is posted on
the internet, this opinion is binding only on the
parties in the case and its use in other cases is
limited. R. 1:36-3. Before Judges Koblitz,
Whipple and Mawla. On appeal from the Superior
Court of New Jersey, Chancery Division, Family
Part, Hunterdon County, Docket No. FM-10-032313. Kevin Sembrat, appellant pro se. Respondent
has not filed a brief. PER CURIAM

2

Defendant Kevin Sembrat appeals from the
provisions of a July 1, 2019 order denying his
request to compel plaintiff Pleather Stanton to
reimburse him *2 "$3800 that was automatically
withheld and applied to his arrears" and setting the
emancipation date of the youngest child in July
rather than October 2021. We remand for an order
correcting the emancipation date. According due
deference to the Family Part, we affirm the
monetary provision, thereby allowing the trial
court to fashion an appropriate equitable remedy.

|||p casetext

The parties were married in 1995, had three
children and were divorced in 2014. On April 13,
2018, the parties entered into an agreement, which
was recorded by court order, that in part provided
that "[defendant's arrears payback shall be set at
$0, to be revisited upon [the youngest child's]
emancipation." Nonetheless, the Hunterdon
County Probation Child Support Enforcement
Unit intercepted a Worker's Compensation
settlement owed to defendant and sent $3800 to
plaintiff, thereby reducing the more than $25,000
in arrears due prior to the April 2018 order.
Defendant sought reimbursement from plaintiff.
He offered to stop paying $135 child support
weekly until the $3800 was paid off. Plaintiff told
the court she had spent the unexpected funds on
necessities, had no funds to repay defendant and
needed the weekly child support. The court did not
grant defendant relief. *3
Defendant argues that generally a family contract
should be vigorously enforced by the court. When
reviewing an agreement resolving a matrimonial
dispute, however, we are to "consider what is
'written in the context of the circumstances' at the
time of drafting and to apply 'a rational meaning in
keeping with the expressed general purpose.'"
Wvotas v. Greenwood Tree Experts. Inc.. 237 N.J.
501, 512 (2019) (quoting Sachau v. Sachau. 206
N.J. 1, 5-6 (2011)). "When the intent of the parties
is plain and the language is clear and
unambiguous, a court must enforce the agreement
as written, unless doing so would lead to an
absurd result." Quinn v. Quinn. 225 N.J. 34, 45
(2016). "At the same time, '[t]he law grants
particular leniency to agreements made in the

1

Stanton v. Sembrat

DOCKET NO. A-5389-18T3 (N.J. Super. May. 22, 2020)

domestic arena,' thus allowing 'judges greater
discretion when interpreting such agreements.'"
Sachau. 206 N.J. at 5 (alteration in original)
(quoting Guglieh.no v. Guglielmo. 253 N.J. Super.
531,542 (App. Div. 1992)).

4

We defer in great measure to the Family Part,
which has the parties before it and can assess the
appropriate remedy through an experienced and
equitable lens. "[MJatrimonial courts possess
special expertise in the field of domestic
relations." Cesare v. Cesare. 154 N.J. 394, 412
(1998). "[A]n appellate court should not disturb
the 'factual findings and legal conclusions of the
trial judge unless [it is] convinced that they are so
manifestly unsupported by or *4 inconsistent with
the competent, relevant and reasonably credible
evidence as to offend the interests of justice.'"
Ibid, (second alteration in original) (quoting Rova
Farms Resort. Inc, v. Investors Ins. Co.. 65 N.J.
474, 484(1974)).

Plaintiff did nothing to cause the $3800 intercept.
The money was put in her bank account and she
spent it. It was within the court's equitable powers
to allow the issue of her possible reimbursement
of the money to abide the emancipation of the
youngest child, especially in light of the large
outstanding arrearages accumulated by defendant
prior to the April 2018 order.
We accept defendant's position that the court
mistakenly placed an incorrect date of
emancipation for the youngest child in the order.
We remand for the three-month correction.
Affirmed in part and remanded in part. We do not
retain jurisdiction.
I hereby certify that the foregoing is a true copy of
the original on file in my office.
CLERK OF THE APPELLATE DIVISION

^ casetext

2

p
4

**>•. '

APR 1 3 2018

V)

□

CERTIFIED

j

E

To be
a true copy
PREPARED BY THE COURT

HONORABLE ROBERT G. WILSON

SUPERIOR COURT OF NEW JERSEY
CHANCERY DIVISION-FAMILY PART
HUNTERDON COUNTY_____________

HEATHER STANTON,

Plaintiff.

!
!

Appendix C
DOCKET NO.: FM-10-323-13

v.

Civil Action
KEVIN SEMBRAT,
!

ORDER

Defendant.
j

IT IS on tills 13th day of April 2018, ORDERED as follows:
1. Defendant’s child support obligation shall be set at $135 per week, effective the date of
this order.
2. Defendant's alimony obiigation shall be set at $0.
3. Defendant’s arrears payback shall be set at $0. to be revisited upon Schafer's
emancipation.
4. The parties are permitted to revisit Defendant’s support obligation upon a change in
circumstances, such as Defendant obtaining new employment.
5. Beginning the date of this order. Plaintiff shall keep a detailed record, complete with
proofs, of Defendant’s share of the children’s health insurance premium; the children’s
auto insurance; and the children’s extra-curricular expenses, Defendant’s share shall be
50%. Upon Schafer’s emancipation, Plaintiff is permitted to move for Defendant’s share
of the children’s expenses to be added to Defendant’s arrears. Plaintiff shall provide
Defendant with proof of his share of the children’s expenses on a quarterly basis.
6. Defendant’s obligation to provide Plaintiff with, proof of his job search is hereby vacated.
7. Defendant shall be permitted to overnight parenting time once he obtains a private
residence. Defendant's receipt of overnight parenting shall not be grounds to recalculate
his child support obligation. The parties agree that paragraph 1.10 of their MSA shall not
be enforced.

I

»-

8. This order resolves all outstanding issues, including all issues that were to be addressed at
the scheduled plenary hearing on May 29, 2018.
9. Copies of this order were provided to the parties in court.

HON. ROBERT G. WILSON, J.S.C.

KEVIN SEMBRAT

A

OrfLj'X Jy\

lEATHER STANTON

STANTON HEATHER
PLAINTIFF
I

VS

[Obligor
fxlObllgee
HEARING DATE
04/13/2018

SUPERIOR COURT OF NEW JERSEY
Chancery Division-Family Part

SEMBRAT KEVIN A
DEFENDANT
□Obligor

1

CIVIL ACTION ORDER

lObligee

COUNTY: HUNTERDON COUNTY
WELFARE /U.I.F.S.A.#
DOCKET#: FM-10-000323-13
CS#: CS91096114A
QAtty for DEF
[x]DEF
QAtty for PL
| |County Probation Division

I

i

ITlPL
With appearance by:
QlV-D Atty
This matter having been opened to the court by: pTlPlainliff | [Defendant | [County Welfare Agency I IProbation Division I IFamily Division
for an ORDER for: □Paternity f~l Support f~1 Visitation |~1 Custody (~| Enforcement Q Modification / Increase / Decrease
□ Termination / Continuation □ Status Review
1.

State with Continuing Exclusive Jurisdlction:NEW JERSEY

2A.
2B.
2C.

CHILD'S NAME
SEMBRAT SCHAFER D
SEMBRAT KEVIN A
SEMBRATSPENSERS

BIRTH'DATE
10/13/2002
09/28/1999
04/14/1998

2D.

CHILD'S NAME

BIRTH DATE

:

2E.
2F.
2G.
2H.

3.
4.

□
□

is hereby established and an ORDER of paternity is hereby entered.
PATERNITY of child(ren) (# above)
above.
A Certificate of Parentage has been filed for child(ren) #

5.

[7]

IT IS HEREBY ORDERED THAT: The obligor shall pay support to the New Jersey Family Support Payment Center in the amount of:

i

+

135.00

+

135.00

payable

WEEKLY

effective

04/13/2018

Date
Frequency
Total
Arrears Payment
Spousal Support
NOTE: Child support is subject to a biennial cost-of-living adjustment in accordance with R. 5:6B
□ Deviation reason: STIPULATED AGREEMENTS
Child Support Guidelines Order
Worksheet attached.
Support order shall be administered and enforced by the Probation Division in the county of Venue, HyNTERPPN._QQ_UNTY.
ARREARS calculated at establishment hearing are based upon amounts and effective date noted above and total

Child Support
6.
6A.
7.
8.

□
□
[~x~|
[~|

9.
10.

□
□

ARREARS indicated in the records of the Probation Division, are $ 25,46M2as of OiZlSSfllg______________________
GROSS WEEKLY INCOMES of the parties, as defined by the Child Support Guidelines, upon which this ORDER Is based:
OBLIGEE $
OBLIGOR S ________________

TT

□

INCOME WITHHOLDING is hereby ORDERED on current and future income sources, including:
Name of income source:
Address of income source:
STATE OF NEW JERSEY
P° BOX 716 TRENTON NJ
08625-0716 (609)292-5097
UIB

12.

□

$

OBLIGOR SHALL, however, make payments AT ANY TIME that the full amount of support and arrears is not withheld.
Medical Support coverage as available at reasonable cost shall be provided for the
|~l chlld(ren) f~1 spouse, by
Obligor □
Obligee □
Both □
The parties shall pay unreimbursable health care expenses of the child(ren) which exceed $250.00 per child per year as follows:
% Obligor
_________________________ % Obligee
Pursuant to R 5:6A the obligee shall be responsible for the first $250.00 per child per year.
If coverage is available, Medical Insurance I.D. card(s) as proof of coverage for the child(ren)/spouse shall be provided immediately
upon availability to the Probation Division by the:
I | Obligee
Q Obligor
12A. □ Insurance currently provided by a non-party:________
12B. □ Health insurance benefits are to be paid directly to the health care provider by the insurer.
) is hereby ORDERED. The county
13. □ GENETIC TESTING to assist the court in determining paternity of the child(ren)(#
welfare agency or-the foreign jurisdiction in the county of residence of the child shall bear the cost of said testing, without prejudice
to final allocation of said costs. If defendant is later adjudicated the father of said child(ren), defendant shall reimburse the welfare
agency for the costs of said tests, and pay child support retroactive to_________
13B. □ Issue of retroactive order reserved.
13A. □ Issues of reimbursement reserved.

CS526,61893403

I

-\

04/13/2018
CS# CS91096114A
HEARING DATE
PAGE 2 OF 2
DOCKET#
FM:10J>0032^13
..
A
copy
of
this
ORDER
shall
serve as the
14, □ This matter is hereby RELISTED for a hearing on__________before
summons for the hearings. No further notice for appearance shall be given. Failure to appear may result in a default order, bench
warrant, or dismissal. Reason for relist:______________________________________________________________________
TiT □ AN FMPI dymfnt SFARCH MUST BE CONDUCTED BY THE OBLIGOR. Written records of at least #
employment contacts
per week must be presented to the Probation Division. If employed, proof of income and the full name and address of employer
must be provided immediately to the Probation Division.
□ Diligent Inquiry
16. □ SERVICE upon which this order Is based:
Regular Mall (not returned)
Refused
Certified Mail:
Personal Service
Other:
Returned Unclaimed
Signed by:
Date:

17.

□
Q

18.

□

19.

Q

20.
21.

□
□

22.

□

23.

lY)

R

3

B

A BENCH WARRANT for the arrest of the obligor is hereby ORDERED. The obligor was properly served with notice for court
, and failed to appear. (Service noted above). An amount of $___________shall be required for release.
appearance on
or until further
THE OBLIGOR IS HEREBY INCARCERATED in the___________County Jail until the obligor pays S
notice of this court. The obligor was found to be not indigent and had the ability to pay the support order for reasons Indicated
below.
or more may result in the Issuance of a
FUTURE MISSED PAYMENT(S) numbering
EFFECTIVE
warrant, without further notice.
or a bench warrant may be issued
must be made by the obligor by
A LUMP SUM PAYMENT OF $.
without further notice.
This complaint / motion is hereby DISMISSED: (reason)
. Arrears accrued prior to effective
as
Order of Support is hereby TERMINATED effective
date, if any, shall be paid at the rate and frequency noted on page number one of this ORDER._________________
THIS ORDER IS ENTERED BY DEFAULT. The □obligor □obligee was properly served to appear for a hearing on
22AQ Affidavit of Non-Military Service is filed.
and failed to appear.
It is further ORDERED: The Probation Department shall update Its records to reflect Mr. Sembrat's child support obligation in
the amount of $135 per week. He shall have no alimony or arrears payback obligation, at present. He shall not be required
to make any payments towards his arrears until Schafer's emancipation. At that time an arrears.payback amount shall be
implemented.
EXCEPT AS PROVIDED HEREIN, ALL PRIOR ORDERS OF THE COURT REMAIN IN FULL FORCE AND EFFECT.

I hereby declare that I understand all provisions of this ORDER recommended by a Hearing Officer and I waive my right to an
immediate appeal to a Superior Court Judge:
DEFENDANT
PLAINTIFF
ATTORNEY FOR DEFENDANT
ATTORNEY FOR PLAINTIFF
INTAKE CONFERENCE BY AUTHORIZED COURT STAFF:
24.
25.

26.

1

□

□

PROBATION PREPARED CHILD SUPPORT ORDER

The parties request the termination of all Title IV-D services and consent to direct payment of support. They are advised that all
mo nitoring, collection, enforcement and location services available under Title IV-D of the Social Security Act are no longer in effect.
I understand I may reapply for Title IV-D services.
obligee
Copies provided at hearing to □obligee □obligor 26A.[T]Copies to be mailed to [xjobligee

obligor
[xjobligor_______________

TAKE NOTICE THAT THE ATTACHED NEW JERSEY UNIFORM SUPPORT NOTICES ARE INCORPORATED INTO THIS ORDER BY REFERENCE AND
ARE BINOING ON ALL PARTIES.

So Recommended to the Court by the Hearing Officer:
H.O.
Date
So Ordered by the Court:
Judge ROBERT G WILSON
Date 04/13/2018

Signature
I

' 1

\
Signature).

CS526,61893403

i

J.S.C.

NEW JERSEY UNIFORM SUPPORT NOTICES
TAKE NOTICE that the following provisions are to be considered part of this order and are binding on all parties:
1.

You must continue to make all payments until this court order is changed by another court order. The obligee and obligor shall notify the appropriate Probation Division of
any change of address, employment status and health care coverage for themselves and the child(ren) within 10 days of the change. Notices are sent to the fast address
provided. Not providing this information is a violation of this Order, (R. 5:7-4A(d)}

2.

Child support shall terminate by operation of law when a child marries, dies or enters military service. Child support shall also terminate on the child's 19!h birthday unless
another age is specified in a court order, which shall not extend beyond the child's 23rd birthday. (N.J.S.A. 2A:17-56.67 et seq.).

3.

You must file a motion or application to the Family Division in the county in which the order was entered In order for the court to consider a change in the support order.
Contact the Family or Probation Division for instructions. It is Important to request a change as soon as possible after your income or the child(ren)'s status changes. In
most cases, if you delay making your request and you are the obligor, you will have to pay the original amount of support until the date of your written request.

4.

Payments must be made to the New Jersey Family Support Payment Center, P.O. Box 4880, Trenton, NJ 08650. unless the court directs otherwise. (R. 5:7-4(d)). Payments
may be made by money order, check, direct debit from your checking account, or credit card. Gifts, other purchases, or in-kind payments made directly to the obligee or
child(ren) will nol fulfill the support obligation. Credit for payments made directly to the obligee or children) may not be given without a court order.

5.

No payment or Installment for child support, or those portions of an order that are allocated for child support, shell be retroactively modified by the court except for the
period during which the party seeking relief has pending an application for modification as provided in N.J.S.A. 2A:17-56.23a. (R. 5:7-4A(d)).

6.

The amount of child support and/or the addition of a health care coverage provision in cases receiving services under Title IV-D of the Social Security Act shall be subject
to review at least once every three years, on written request by either party to the Division of Family Development, P.O. Box 716, Trenton, NJ 08625-0716, as appropriate,
or upon motion or application to the court. (N.J.S.A. 2A: 17-56.9a: R. 5:7-4A(d)).

7.

In accordance with N.J.S.A. 2A:34-23b. the custodial parent may require the non-custodial parent's health care coverage provider to make payments directly to the health
care provider by submitting a copy of the relevant sections of the order to the insurer. (R. 5:7-4A(d)).

8.

Social Securily numbers are collected and used in accordance with section 205 of the Social Security Act {42 U.S.C. 405) to obtain individual's income, employment, and
benefit information on individuals through computer matching programs with federal and slate agencies, and such information is used to establish and enforce child support
under Title IV-D of the Social Security Act (42 U.S.C. 651 et seq.). Disclosure of an individual's Social Security number for Title IV-D purposes is mandatory. (R. 5:7-4A(d)).

9

The United Slates Secretary of State shall refuse to issue or renew a passport to any person certified as owing a child support arrearage exceeding the statutory amount.
In addiilon, the U.S. Secretary of State may take action to revoke, restrict or limit a passport previously issued to an individual owing such a child support arrearage.
(42 U.S.C. 652{k)).

10.

Failure to appear for a hearing to establish or to enforce an order, or failure to comply wilh the support provisions of this order may result in incarceration. If you fail to
appear, a default order may be entered against you or a warrant may be Issued for your arrest (R. 5:7-4A(d)).

11.

Any payment or installment for child support shall be fully enforceable and entitled to full faith and credit and shall be a Judgment by operation of law on and after the
date it is due (N.J.S.A, 2A: 17-56.23.a; R. S:7-4A(d)). Any non-payment of child support has the effect of a lien against your property. This lien may affect your ability to
obtain credit or to sell yaur property. Failure to remit timely payment automatically results in the entry of a lydnmenl..aqalnsUhe..abUapr-arisLBa5l-wd9ment interest may
be charged. Any party to whom the child support is owed has the right to request assessment of post-judgment interest at the rate prescribed by Rule 4:42-11(a) before
the judgment may be satisfied. (R. 5:7-4A(d)).

12.

In accordance with N.J.S.A. 2A:17-56.7 et seq., the child support provisions of a court order are subject to income withholding on the effective dale of the order unless
the parties agree, in writing, to an alternative arrangement or either party shows and the court finds good cause to establish an alternative arrangement. The income
withholding Is effective upon all types of income including wages from current and future employment. (R. 5:7-4A(a)(3)). The child support provisions of the order are
subject to income withholding when a child support arrearage has accrued In an amount equal to or in excess of the amount of support payable for 14 days. The withnolding
is effective against the obligor’s current and future income from all sources authorized by law. (R. 5:7-4A(b)).

13.

Any occupational, recreational, and professional licenses, including a license to practice law. neld or applied for by the obligor may be denied, suspended or revoked if.
1) a child support arrearage accumulates that is equal to or exceeds the amount set by statute, or 2) the obligor fails to provide health care coverage for the child as
ordered by the court, or 3) a warrant for the obligor's arrest has been issued by the court for obligor's failure to pay child support as ordered, or for obligor's failure to
appear at a hearing to establish paternity or child support, or for obligor's failure to appear at a child support hearing to enforce a child support order and said warrant
remainsoulstanding. (R. 5:7-5),

14.

The driver's license held or applied for by the obligor may be denied, suspended, or revoked if 1) a child support arrearage accumulates that Is equal to or exceeds the
amount set by statute, or 2) the obligor fails to provide health care coverage for the child as ordered by the court. The driver's license held or applied for by the obligor
shall be denied, suspended, or revoked if the court issues a warrant for the obligor's arrest for failure to pay child support as ordered, or for failure to appear at a hearing
to establish paternity or child support, or for failure to appear at a child support hearing to enforce a child support order and said warrant remains outstanding. (R. 5:7-5),

15.

The name of any delinquent obligor and the amount of overdue child support owed will be reported to consumer credit reporting agencies as a debt owed by the obligor,
subject to all procedural due process required under State law. (N.J.S.A. 2A:17-56,21).

16.

Child support arrears may be reported to the Internal Revenue Service and the Stale Division of Taxation, Tax refunds and homestead rebates due the obligor may be
taken to pay arrears (N.J.S.A. 2A:17-56.16)

17.

Child support arrears shall be paid from the net proceeds of any lawsuit, settlement, civil judgment, civil arbitration award, inheritance or workers' compensation award to
a prevailing party or beneficiary before any monies are disbursed. (N.J.S.A 2A:17-56.23b).

18.

Periodic or lump sum payments from State or local agencies, Including lotteries, unemployment compensation, workers' compensation or other benefits, may be seized
or intercepted to satisfy child support arrearages. (N.J.S.A. 2A:17-56.53).

19.

If you owe past due child support, your public or private retirement benefits, and assets held in financial institutions may be attached to satisfy child support arrearages.
(N.J.S.A. 2A;17-56.53).

20.

A person under a child support obligation, who willfully falls to provide support, may bo subject to criminal penalties under State and Federal law. Such criminal penalties
may include imprisonment and/or fines. {N.J.S.A, 2C:24-5; N.J.S.A. 20:62-1; 18 U.S.C. 22).

21.

If this order contains any provision concerning custody and/or parenting time, both parties are advised: Failure to comply with the custody provisions of this court order
may subject you to criminal penalties under N.J.S.A. 20:13-4. Interference with Custody. Such criminal penalties include, but are not limited to, imprisonment, probation,
and/or fines. Si usted deja de cumpilr con las clausulas de custodia de esta ordern del tribunal, puede estar sujeto (sujela) a castigos crlminales conforme a N.J.S.A.
20:13-4, Interference with Custody, (Obstrucclon de ia Custodia), Dichos castigos criminaies inciuyen pero no se Hmitan a encarcelamiento, libertad, multas o una
combinacion de los tres.

CS526,61893403

i

I

i

fr5
CERTIFIED
TO BE

i 'i

a
JUI -i 2019 ;LD

A TRUE COPY

J

PREPARED BY THE COURT

HONORABLE ROBERT G. WILSON

SUPERIOR COURT OF NEW JERSEY
CHANCERY DIVISION- FAMTT.v papt
HUNTERDON COUNTY

!

HEATHER STANTON
(f/k/a Heather Sembrat)
Plaintiff,

!
!

Appendix D

DOCKET NO.: FM-10-32£T3
v.
Civil Action
KEVIN SEMBRAT,
ORDER
Defendant.
!

THIS MATTER having been opened to the court on a motion filed by the Defendant
Kevin Sembrat, pro se; and with a cross motion filed by Plaintiff, Heather Sembrat, pro se; and the
court having considered the pleadings; and for good cause shown;
IT IS on this 1st day of July 2019, ORDERED as follo ws:
1. DEFENDANT’S REQUEST to correct his Probation account to reflect the court’s April
13, 2018 order, and set his arrears payback amount at $0 is GRANTED.
2. DEFENDANT’S REQUEST to compel Plaintiff reimburse Defendant $3,800 that was
automatically withheld and applied to his arrears is DENIED.
3. DEFENDANT’S REQUEST to eliminate Notice of Levy, lien, and tax refund capture as
unordred arrears payback is GRANTED, as modified.

Until the date of Schafer’s

emancipation, July 1,2021, Probation shall not issue any credit reports, child support liens

(on any settlements), bank levy, or automatically withhold his tax refunds.
4. PLAINTIFF’S REQUEST to deny Defendant’s motion in its entirety is DENIED.
5. PLAINTIFF’S REQUEST to compel Defendant to increase his life insurance policy is

DENIED.

/■ r.

/"

I-ION. ROBERT G. WILSON', J.S.C.
SEE ATTACHED STATEMENT OF REASONS.
1

t

Stanton v. Sembrat
FM-10-323-13
Statement of Reasons
RRIF.F STATEMENT OF PROCEDURE
Plaintiff, Heather Stanton (f/k/a Heather Sembrat) and Defendant, Kevin Sembrat were
married on May 28, 1995. There are three children born of the marriage, namely: Spenser, bom
on April 14, 1998 (currently age 21); Kevin Jr., bom September 28, 1999 (currently age 19); and
Schafer, bom on October 13, 2002 (currently age 16). The parties were divorced on a date not
supplied to the court. On May 23,2019 Mr. Sembrat filed this current application. On June 3,
2019 Ms. Stanton filed a cross-motion. Mr. Sembrat filed a reply on June 10, 2019.
DEFENDANT’S FACTUAL CONTENTIONS AND SUBMISSIONS
Mr. Sembrat certifies that he and Ms. Stanton reached an agreement memorialized in a
court order on April 13, 2018. He states that the parties’ agreement, memorialized in a court
order, stated that his arrears payback shall be set at $0, to be revisited upon Schafer’s
emancipation. Mr. Sembrat argues that there were no conditions placed on this agreement. He
asserts that despite the court’s order, $3,800, from a settlement with his employer, was withheld
and paid towards his arrears. Mr. Sembrat requests that this money not be released to Ms.
Stanton and returned to him immediately.
Mr. Sembrat asserts that his Probation account has incorrectly reflected that he should be
paying arrears. He states that, pursuant to the court’s April 13, 2018 order, which was consented
to by the parties, he would not make payments towards his arrears until Schafer’s emancipation.
Mr. Sembrat argues that Probation has refused to reflect this order and that the present arrears
have caused tax problems. He states that Probation informed him that the arrears cannot be set
as future arrears and will remain present arrears, which continue to cause enforcement actions.
Mr. Sembrat asserts that his tax refund should not be withheld and placed towards his arrears
because this is contrary to the court order.
PLAINTIFF’S FACTUAL CONTENTIONS AND SUBMISSIONS
Ms. Stanton argues that any potential windfall that the Probation department saw fit to
apply to Mr. Sembrat’s arrears was not discussed at the time of settlement. She admits that the

1

$3,800 payment was released to her from Probation and that it is no longer available. Ms.
Stanton argues that Mr. Sembrat’s paying $0 in arrears is financially burdensome to her.
DEFENDANT’S REPLY
Mr. Sembrat argues that Ms. Stanton admits that the $3,800 she received was an arrears
pay back. He asserts that this money should have never been paid and that Probation erred in in
releasing these monies. Mr. Sembrat disputes that Ms. Stanton is in financial crisis without the
arrears being paid. He argues that she bought an expensive home and that her mother helps her
financially. Mr. Sembrat asserts that his arrears were set so that he would not pay them until
Schafer’s emancipation because he cannot afford his rent or other basic living expenses.
COURT’S FINDINGS AND ANALYSIS
I.

PROBATION ACCOUNT

Mr. Sembrat asserts that his probation account is incorrectly withholding monies from
court settlements and tax refunds and is placing liens against his arrears. He claims that the
court’s April 13,2018 order prohibits enforcement of his child support arrears until the parties’
son Schafer is emancipated. Mr. Sembrat argues that, at that time, his arrears are to be addressed
and that he will begin paying them. He states that Probation automatically took his settlement
with his employer in the amount of $3,800 and credited it towards his arrears. Mr. Sembrat
states that, through the Hunterdon County Probation Department, this money was released to Ms.
Stanton. Mr. Sembrat requests that Ms. Stanton immediately reimburse him $3,800 and that
Probation correct his account to reflect that no enforcement will take place.
Ms. Stanton admits that $3,800 was released to her and credited towards Mr. Sembrat’s
substantial child support arrears. She does not dispute that the parties agreed that Mr. Sembrat
would not make any payments towards his arrears until Schafer is deemed emancipated.
However, she argues that, now that she has thought about it, she finds this agreement
unequitable. Ms. Stanton argues that she and the children are dependent on Mr. Sembrat’s child
support payments. She argues that she cannot reimburse Mr. Sembrat $3,800.
The power of a court to enforce an order is beyond question and the particular manner in
which compliance may be sought is left to the sound discretion of the Court. Board ofEduc. of
the Twp. of Middletown v. Middletown TWp. Educ. Ass’n, 352 N.J. 501, 508-09 (Ch. Div.
2

The court’s April 13, 2018 order states:
1. Defendant’s child support obligation shall be set at $ 135 per
week, effective the date of this order.
2. Defendant’s alimony obligation shall be set at $0.
3. Defendant’s arrears payback shall be set at $0, to be revisited
upon Schafer’s emancipation.
Mr. Sembrat’s probation account reflects arrears in the amount of $21,516.42. The court
finds that the $3,800 shall not be returned. Mr. Sembrat received the necessary credit for this
payment. The court will grant relief with respect to one aspect of the court’s April 13, 2018
order. The order provides for Mr. Sembrat’s arrears pay back to be temporarily suspended until
Schafer’s emancipation. The court intended that there would be no enforcement of the arrears
until that time. Therefore, until the date of Schafer’s emancipation, July 1, 2021, Probation shall
not issue any credit reports, child support liens (on any settlements), bank levy, or automatically
withhold his tax refunds, The court notes that it has no authority to exempt Mr. Sembrat from
passport denial. If Schafer attends college or a technical school, either party may make a future
application to continue to withhold Mr. Sembrat’s obligation to pay back his arrears.
II. LIFE INSURANCE
Ms. Stanton requests that Mr. Sembrat provide proof of his life insurance policy and that
he add an additional rider to ensure that this policy covers his substantial arrears as well. She
states that his current policy involves additional riders and is in the amount of $150,000.
The New Jersey Supreme Court has indicated that "[t]he basic contractual nature of matrimonial
agreements has long been recognized." Pacifico v. Pacifico. 190 N.J. 258, 265 (2007). Courts should,
therefore, enforce marital agreements as the parties intended. Id. at 266, Just as in other contractual
situations, "[wjhere a dispute arises as to the application of a property settlement agreement, the court
may apply basic principles of fairness and equity to resolve ambiguities." Guglielmo, supra, 253 N.J.
Super, at 541. In so doing, "[t]he court's role is to consider what is written in the context of the
circumstances at the time of drafting and to apply a rational meaning in keeping with the 'expressed
general purpose.'" Pacifico. supra, 190 N.J. at 266 (quoting Atl. N. Airlines, Inc, v. Schwimmer, 12 N.J.
293,302 (1953)).
Paragraph 2.17 of the parties MSA states:

3

Husband’s Obligation: Husband shall maintain life insurance with
a death benefit in the amount of at least $150,000 naming the Wife
as custodian for the benefit of the unemancipated children of the
marriage for as long as any child remains unemancipated.
Husband shall provide Wife with proof that he continues to
maintain such life insurance annually. Husband shall further
maintain life insurance with a death benefit in the amount of at
least $150,000 naming Wife as beneficiary for as long as he has an
alimony obligation. Husband shall provide Wife with proof that he
continues to maintain such life insurance annually.
The court is required to enforce binding agreements formed by the parties. The court will
not renegotiate the parties’ agreement. Paragraph 2.17 of the parties’ MSA requires that they
both maintain a life insurance with a death benefit in the amount of at least $150,000 naming the
other as the beneficiary. Each party is responsible to maintain a policy for $150,000. There is
no obligation to increase this policy. Mr. Sembrat has a life insurance policy through his
employer naming Ms. Stanton as the beneficiary. The proof that Ms. Stanton supplies does not
show how much the policy is for. However, Ms. Stanton does not dispute that it is for at least
$ 150,000, which is the amount required by the MSA. Therefore, Ms. Stanton’s request is
denied. Of course, Mr. Sembrat is free to voluntarily increase this policy.

4

STANTON HEATHER
PLAINTIFF
|

[Obligor

VS

HDObllgor

[TlObligee

I

[Obligee

WELFARE /U.I.F.S.A.#

HEARING DATE
06/28/2019

CIVIL ACTION ORDER

COUNTY:

HUNTERDON COUNTY

DOCKET#:
CS It:

QQPL

With appearance by:

SUPERIOR COURT OF NEW JERSEY
Chancery Division-Family Part

SEMBRAT KEVIN A
DEFENDANT

CS91096114A
0DEF

OAlty for PL

QAIty for DEF

nCotmly Probation Division

QlV-D Ally

This matter having been opened to the court by: QJPInintilt [TJDefendflnl □Courtly Welfare Agency □Probation Division □Family Division
tor an ORDER lor □Paternity □ Support Qvishatlon □ Custody [x] Enforcement Q Modification / Increase / Decrease
□ Termination/Continuation □Status Review
1

State with Continuing Exclusive JurisdiclionNEW JERSEY

2A.

SEMBRAT SCHAFER D

10/13/2002

2E.

2B.

SEMBRAT KEVIN A

09/28/1999

2F.

2C.

SEMBRAT SPENSERS

04/14/1998

2G.

CHILD'S NAME

CHILD'S NAME

BIRTH DATE

2D.

BIRTH DATE

2H.

3

|

|

*•

□

A Certificate ol Parentage has been filed lor child(ren) #

5

I

IT IS HEREBY ORDERED THAT: The obligor shall pay support to the New Jersey Family Support Payment Center in the amount ol:

I

PATERNITY ol child(ren) (4 above)

is hereby established and an ORDER ol paternity is hereby entered.
above.

effective

payable
Child Support

Spousal Support

Arrears Payment

Total

Frequency

Date

NOTE: Child support Is subject to a biennial cost-of-living adjustment in accordance with R. S:6B
6

LD

Child Support Guidelines Order

6A.

|

|

Worksheet attached.

j

I

I Deviation reason:

7

|

8

□

ARREARS calculated at establishment hearing are based upon amounts and effective dale noted above and total

Support otdei shall be administered and enforced by the Ptobalion Division in the county ol Venue, HUNT.ERDP_NjCQ.UNTY.

9

[T|

ARREARS indicated in the records of the Probation Division, are $ _2l.651.42as of 07/01/20JL9_________________________

$
10
it

GROSS WEEKLY INCOMES of the parlies, as defined by the Child Support Guidelines, upon which this ORDER is based:
OBLIGORS
OBLIGEE $
□)

INCOME WITHHOLDING is hereby ORDERED on current and future income sources, including:
Name ol income source:

Address of income source:

OBLIGOR SHALL, however, make payments AT ANY TIME that the full amount of support and arrears is not withheld.
12

□

Medical Support coverage as available at reasonable cost shall be provided for the
| [ chlld(ten) [□ spouse, by
Obligor □]
Obligee □
Both (□
1 he parties shall pay umeimbursable health care expenses ol the child(ren) which exceed $250.00 per child per year as follows:
% Obligor

% Obligee

Pursuant to R 5:6A lire obligee shall be responsible for the first $250.00 per child per year.
If ooverage is available. Medical Insurance I D. card(s) as proof of coverage for the child(ren)/spouse shall be provided immediately upon
availability to the Probation Division by the'
I | Obligor
| | Obligee
; 2A

LD

Insurance currently provided by a non-party.

f 26

□

Health insurance benefits aie to be paid directly to the health care provider by the insurer.

□

.) is hereby ORDERED. The county
GENETIC TESTING to assist the courr in determining paternity of the chiid(ren)(S
weltaie agency or the (oieign juiisdictton in (lie county of residence of the child shall bear the cost of said testing, without prejudice lo
final allocation of said costs If defendant is later adjudicated the lather ol said chiki(ren), defendant shall reimburse the welfare agency
for the costs ol said tests and pay child support retroactive to __________

12

13A. □

Issues of leunbuisement leserved

CS526,69712277

13B □ Issue of retroactive order reserved

O)

<n

S

?

?
9

s2

*
HEARING DATE

CS# CS91096114A

03/20/2019
PAGE 2 OF2
This matter is hereby RELISTED for a hearing on
before------ -—A copy of this ORDER shall serve as the
summons for the hearings. No further notice for appearance shall be given. Failure to appear may result in a default order, bench
__________warrant, or dismissal. Reason for relist:___________ ______________________________________
15. □ AN EMPLOYMENT SEARCH MUST BE CONDUCTED BY THE OBLIGOR. Written records of at least #___ employment contacts per
week must be presented to the Probation Division. II employed, proof of income and the full name and address of employer must be
provided immediately to the Probation Division.___________________________ ____

DOCKET#
14.

□

16.

□

FM-10-000323-13

SERVICE upon which this order is based:
Personal Service
Date:

17.

□
□

□ Diligent inquiry

s

Refused
Returned Unclaimed

□Certified Mail:
□Signed by:

05

egular Mail (not returned)
titer:

A BENCH WARRANT for the arrest of the obligor is hereby ORDERED. The obligor was properly served with notice lor court
, and failed to appear. (Service noted above). An amount of $__________ shall be required for release.
appearance on
THE OBLIGOR IS HEREBY INCARCERATED in the
-County Jail until the obligor pays $
or until further
notice of this court. The obligor was found to be not indigent and had the ability to pay the support order for reasons indicated below.
or more may result in the issuance of a warrant,

16.

□

EFFECTIVE ______
without further notice.

FUTURE MISSED PAYMENT(S) numbering

19.

□

A LUMP SUM PAYMENT OF $.
further notice.

20.

□

This complaint/motion is hereby DISMISSED: (reason)

21.

□

as
Order of Support is hereby TERMINATED effective
date, if any, shall be paid at the rate and frequency noted on page number one of this ORDER.

22.

□

THIS ORDER IS ENTERED BY DEFAULT. The □obligor □obligee was properly served to appear for a hearing on

23.

[x]

________ and failed to appear,
22A.| | Affidavit of Non-Military Service is filed. ____________________________________
It is further ORDERED: Until the date of Schafer’s emancipation. July 1.2021. Probation shall not issue anyj:redit_Lepoit.sJ_child_
support liens (on any settlements), bank levy, or automatically withhold his tax refund^.________________________________

must be made by the obligor by

., or a bench warrant may be issued without

.. Arrears accrued prior to effective
____________________________

______________________________ EXCEPT AS PROVIDED HEREIN, ALL PRIOR ORDERS OF THE COURT REMAIN IN FULL FORCE AND EFFECT._________________________________

I hereby declare that I understand all provisions of this ORDER recommended by a Hearing Officer and I waive my right to an immediate
appeal to a Superior Court Judge:
PLAINTIFF
DEFENDANT
ATTORNEY FOR DEFENDANT
ATTORNEY FOR PLAINTIFF
INTAKE CONFERENCE BY AUTHORIZED COURT STAFF:
24.
25.

26.

fl

□

j

|

PROBATION PREPARED CHILD SUPPORT ORDER

The parties request the termination of all Title IV-D services and consent to direct payment of support. They are advised that all
monitoring, collection, enforcement and location services available under Title IV-D of the Social Security Act are no longer in eilect. I
understand I may reapply for Title IV-D services.
obligee
Copies provided at hearing to □obligee | jobligor 26AfxlCopies to be mailed to |T[obliqee

obligor
[xjobligor

TAKE NOTICE THAT THE ATTACHED NEW JERSEY UNIFORM SUPPORT NOTICES ARE INCORPORATED INTO THIS ORDER BY REFERENCE AND ARE BINDING ON ALL
PARTIES.

So Recommended to the Court by the Hearing Oflicer:
Date

H.O.

Signature

So Ordered by the Court:
‘
Judge ROBERT G WILSON
Date 07/01/2019

J.S.C.

'
■Vv , . . Vi*

\T-

>< Us

Signature __

O

cu

CM

I
§
cn
Of

8
9
9
o>
«n

CS526,69712277

NEW JERSEY UNIFORM SUPPORT NOTICES
TAKE NOTICE that the following provisions are to be considered part of this order and are binding on all parties:
1.

You must continue to make all payments until this court order Is changed by another court c>>der. The^obfgee and obftgo, sha„ n0% (h0
Ploba,)on Division of any change of address
employment status and health care coverage for themselves and the chfld(ren) within 10 days or the change. Notices
are sent to the last address provided. Not providing this information is
a violation of this Order. (R. 5:7-4A(d)),

2.

ChiH support shall terminate by operation of law when a child marries, dies or enters military servfce. Child suppo,, 5han a)so ,e(mjnate „„
specified in a court order, which shall not extend beyond the child's 23rd bit thday. (NJ-SA. ZA.i r*oo.67 el seq,).

3.

You must file a motion or application to the Family Division in the county in which the otdet was entered In order lor the court to consider a change in the support order. Contact the Family or
Probation Division for Instructions. It Is important to request a change as soon as possible after your income or the children)’* status changes. In most cases, it you delay making your request
and you ar© the obigor, you will have to pay the original amount of support until the date of your written request.

4.

Payments must be made to the New Jersey Family Support Payment Center. P.O. Box 4880, Trenton, NJ 08650, unless the court directs otherwise. (R. 5:7-4(d)). Paymente may be made
by money order, check, direct debit from yout checking account, or credit card. Gifts, other purchases, or In-kind payments made ditectly to the obligee or ehild(ren) win not fulfill the support
obligation. Credit for payments made directly to the obfigee or chiJd(ren) may not be given without a court order.

5.

No payment or installment for child support, or those portions of an order that are allocated for child support shat! be retroactively modified by the court except for the period during which the
party seeking relief has pending an application for modification as provided in NJ.S.A. 2A:17-56.23a. (R. 5:7-4A(d)).

6

The amount of child support and/or the addition of a health care coverage provision in cases receiving services under Title IV*D of the Social Security Act shall be subject to review at feast
once every three years, on written request by either party to the Division of Family Development, P.O. Box 716. Trenton. NJ 08625-0716, as appropriate, or upon motion or application to
the court. (N.J.SA. 2A: 17-56,9a; R. 5:7^iA(d)).

7.

In accordance with N.J.SA. 2A:34-23b, the custodial parent may require the non-custodial parent's health care coverage provider to make payments directly to the health care provider by
submitting acopy of the relevant sections of the order to the insurer. (R. 5:7-4A(d)).

6.

Social Security numbers are collected and used In accordance with section 205 of the Social Security Act (42 U.S.C. 405) to obtain individual's income, employment, and benefit information
on individuals through computer matching programs with federal and state agencies, and such information is used to establish and enforce child support under Title IV-D of the Social Security
Act (42 U.S.C. 651 et seq.). Disclosure of an individual's Social Security number for Title IV-D purposes Is mandatory. (R. 5:7-4A(d)).

9.

The United States Secretary of State shall refuse to issue or renew a passport to any person certified as owing achild support arrearage exceeding the statutory amount. In addition, the U.S.
Secretary of State may take action to revoke, restrict or limit a passport previously issued to an individual owing such a child support arrearage. (42 U.S.C. 652{k)).

10.

Failure to appear for a hearing to establish or to enforce an order, or failure to comply with the support previsions of this order may result in incarceration. If you fail to appear, a default order
may be entered against you or a warrant may be issued for your arrest (R. 5:7-4A{d)).

11.

Any payment or installment for child support shall be fully enforceable arvd entitled to full faith and credit and shaft be a judgment by operation of law on and after the date it is duo (fl.J.$.A.
2A: 17-56.23.a; R. 5:7-4A(d)). Any non-payment of child support has the effect of a lien against your property. This lien may affect your ability to obtain credit or to sol your property£afluretg

chM.s 19(h

m,9s6 ano(her

)s

to request assessment of post-judgment interest at the rate prescribed by Rule 4:42-11(a) before the judgment may be satisfied. (R. 5:7-4A(d)).
12.

In accordance with N.J.S.A. 2A:17-S6.7 et seq., the child support provisions of a court order are subject to income withholding on the effective date of toe order unless the parties agree,
in writing, to an alternative arrangement or either party shorn and the court finds good cause to establish an alternative arrangement. The income withholding is effective upon all types of
income including wages from current and future employment. (R. 5:7-4A(a)(3)). The child support provisions of the order are subject to Income withholding when a child support arrearage
has accrued in an amount equal to or in excess of the amount of support payable tor 14 days. The withholding is effective against the obligor's current and future income from all sources
authorized by law. (R. 5:7-4A(b)).

13.

Any occupational, recreational, and professional licenses, including a license to practice law, held or applied for by the obligor may be denied, suspended or revoked if: 1) a child support
arrearage accumulates that is equal to or exceeds the amount set by statute, or 2) the obligor fails to provide heafth care coverage for the child as ordered by the court, or 3) a warrant for
the obligor's arrest has been issued by the court for obligor's failure to pay child support as ordered, or for obligor's failure to appear at a hearing to establish paternity or child support, or for
obligor's failure to -appeaTat achild support hearing toenforcTa child support order and said warrant temainsTJUtstanding. (R.-5:7*5).-------------------------~
------------------------ .._

14.

The driver's license held or applied for by the obligor may be denied, suspended, or revoked If 1) a child support arrearage accumulates that Is equal to or exceeds the amount set by statute,
or 2) toe obligor fails to provide health care coverage for the child as ordered by the court. The driver's license held or applied for by the obligor shall be denied, suspended, or revoked if toe
court issues a warrant for the obligor's arrest for failure to pay child support as ordered, or for failure to appear at a hearing to establish paternity or child support, or for failure to appear at a
child support hearing to enforce a child support order and said warrant remains outstanding. (R. 5:7-5).

15.

The name of any delinquent obligor and the amount of overdue child support owed will be reported to consumer credit reporting agencies as a debt owed by toe obfigor, subject to ail procedural
due process required under Slate law. (N.J.S.A. 2A:17*56.21).

16.

Child support arresrs may be reported to toe internal Revenue Service and toe State Division of Taxation. Tax refunds and homestead rebates due the obligor may bo taken to pay arrears
(NJ.S.A. 2A:17-56.16).

17.

ChW support arrears shall be paid from toe net proceeds of any lawsuit, settlement, civil judgment, civil arbitration award, inheritance or workers' compensation award to a prevailing party
or beneficiary before any monies are disbursed. (N.J.SA. 2A:l7-56.23b).

18.

Periodic or lumpsum payments from State or local agencies, including lotteries, unemployment compensation, workers'compensation or other benefits, may be seized or intercepted to satisfy
child support arrearages. (N.J.S.A. 2A:17-56.53).

19.

If you owe past due chiW support, your public or private retirement benefits, and assets held in financial institutions may be attached to satisfy child support arrearages. ( N.J.SA. 2A:l7-56.53).

20.

A person under a child support obligation, who willfully fails to provide support, may be subject to criminal penalties under State and Federal law. Such criminal penalties may include
imprisonment and/or fines. (NJ.SA. 2C:24-5; N.J.SA. 2C:62-1; 18 U.S.C. 22).

21.

If this order contains any provision concerning custody and/or parenting time, both parties are advised: Failure to comply with the custody provisions of this court order may subject you to
criminal penalties under N.J.SA. 2C:13-4, Interleienoe with Custody. Such criminal penalties include, but are not limited to. Imprisonment, probation, and/or fines. Siusteddejadecumpfir
con las clausulas de custodia de esta oidern del tribunal, puede estar sujeto (sujeta) a cactigos crlmlnales conform© a N.J.SA. 20:13-4, Interference with Custody, (Obstruction do la
Cuslodia) Dichos castigos criminates incluyen pero no se limitan a encarcelamiento, liber tad, multas o una combinacion de tos ties.

CS526,69712277

*

(VJ

8

?
2

?
9

s2

